WAIVER

FILED
JUN 10 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

SUPREME COURT OF THE UNITED STATES
No.

20-1602
Deutsche Bank National Trust Co., et. al.

Cornelius Berry
(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
0

I am filing this waiver on behalf of all respondents.

QQ

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Deutsche Bank National Trust Co, as Trustee for GSAA Home Equity Trust 2006-17, Asset-Backed
Certificate Seriees 2006-17; and PHI Mortgage Corporation, successor by merger to Ocwen Loan Servicing,
LLC.
Please check the appropriate box:

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

0

ym

Signature:
Date:

o

6/8/21

(Type or print) Name Jill M. Wheaton
0 Mr.

Ms.

Firm

Dykema Gossett PLLC

Address

2723 S. State St., Suite 400

City & State

'Ann Arbor, MI

Phone

734-214-7629

0 Mrs.

0 Miss

Zip 48104
Email jwheaton@dykema.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
Darwyn Fair, Esq.
cc:

DykEmA

Dykema Gossett PLLC
2723 South State Street
Suite 400
Ann Arbor, MI 48104
WWW.DYKEMA.COM

Tel: (734) 214-7660
Fax: (734) 214-7696
Jill M. Wheaton
Direct Dial: (734) 214-7629
Direct Fax: (855) 262-6793
Email: JWheaton@dykema.com

June 8, 2021

Clerk of the Court
Supreme Court of the United States
1 First St., NE
Washington, DC 20543

Re:

Cornelius Berry vs. Deutsche Bank National Trust Co. et. al.
Case #20-1602

Dear Clerk:
Enclosed for filing in the above referenced matter is an original signed Waiver and a copy of same.
Please file the original and return a time stamped copy to me in the enclosed self-addressed
stamped envelope.
Thank you for your assistance, and please contact me if you have any questions.
Sincerely,
DYKEMA GOSSETT PLLC

)14
Jill M. Wheaton
Enclosures
cc:

Darwyn Fair, Esq (w/enclosure)

RECEIVED
JUN 10 2C21
CLERK
OFFICE OF
SUPREME CO 6F-11-, U.S.
California I Illinois I Michigan I Minnesota I Texas I Washington, D.C.

